  UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT

   OFFICE OF INSPECTOR GENERAL
              FOR THE
MILLENNIUM CHALLENGE CORPORATION


        SEMIANNUAL REPORT
         TO THE CONGRESS




         April 1, 2006 - September 30, 2006
     Mission

     The mission of the Office of Inspector General (OIG) is to contribute to and support
     integrity, efficiency, and effectiveness in all activities of the organizations for which it has
     oversight responsibilities.

     Values

     In accomplishing our mission, OIG is committed to the following:

       • Integrity

       • Excellence

       • Teamwork

     Strategic Goals

       • 	Promote sound accounting and reporting on financial activities and information 

          security.


       • 	Promote economy, efficiency, and effectiveness, and assess program results.

       • 	Preserve and protect program and employee integrity.




II
CONTENTS

  Message from the Inspector General . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii


  Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


  Summary of Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2


          Strategic Goal 1: Promote sound accounting and reporting on financial

          activities and information security . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2


          Strategic Goal 2: Promote economy, efficiency, and effectiveness, and

          assess program results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


          Strategic Goal 3: Preserve and protect program and employee integrity . . . . . . . . . . . . . . . . . . . 5


  Appendices: Reporting Requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7





                                                                                                   SEMIANNUAL REPORT TO THE CONGRESS                              i
ii
MESSAGE FROM THE
INSPECTOR GENERAL
T         his Semiannual Report to the
          Congress presents informa­
          tion regarding the United
States Agency for International
Development, Ofﬁce of Inspector
                                         The work reported was planned and
                                         executed in support of OIG/MCC’s
                                         three strategic goals:
                                         • 	 Promote sound accounting and
                                                                                   Signiﬁcant OIG activity and
                                                                                   achievements in support of these
                                                                                   goals are described in this report,
                                                                                   and comprehensive statistics and
                                                                                   data regarding our efforts are also
General’s (OIG) work and results             reporting on ﬁnancial activities      included.
achieved during the six-month                and information security;
period ending September 30, 2006.        • Promote economy, efﬁciency, and         OIG continues to take a results-
It is issued in accordance with the        effectiveness, and assess program       oriented approach in support of the
requirements of the Inspector              results; and                            integrity, efﬁciency, and effectiveness
General Act of 1978, as amended,                                                   of MCC during this critical phase
and speciﬁcally addresses our            • 	 Preserve and protect program and      of program and operations develop­
responsibilities for the Millennium          employee integrity.                   ment.
Challenge Corporation (MCC).




                                                                        Donald A. Gambatesa
                                                                        Inspector General




                                                                                SEMIANNUAL REPORT TO THE CONGRESS            iii
iv
EXECUTIVE SUMMARY

O          IG’s collaborative working
           relationship with MCC
           continues to demonstrate
positive results. During this
reporting period, management
                                                    international auditing of develop­
                                                    ment projects.

                                                    Three reports were issued: an
                                                    audit of the ﬁnancial system to be
                                                                                                         noted MCC’s compliance with
                                                                                                         its current policy and initiatives
                                                                                                         to track and monitor funds, but
                                                                                                         identiﬁed several areas needing
                                                                                                         further improvement. Another
decision was reached on 23                          used to account for funds under                      audit report was issued addressing
                                                                                    1
recommendations. Final action was                   an agreement with El Salvador;                       MCC’s progress in developing
recorded on ﬁve recommendations.                    a risk assessment of Millennium                      its organizational structure and
                                                                                                                               6
Work continued and was initiated in                 Challenge Account (MCA)/Cape                         managing programs. The audit
                                                                                2
support of three strategic goals, and               Verde’s ﬁnancial operations; and                     found that progress had been made
progress was realized under each of                 an audit of MCC’s compliance                         but identiﬁed areas needing further
the goals as follows:                               with the provisions of the                           attention.
                                                    Federal Information Security Act
                                                              3
                                                    of 2002. Vulnerabilities were
Strategic Goal 1:                                   identiﬁed that might lead directly                   Strategic Goal 3:
Promote sound                                       to fraud, erroneous payment, or                      Preserve and protect
accounting and                                      misappropriation of funds. The                       program and employee
                                                    need for improvements to MCC’s
reporting on ﬁnancial                                                                                    integrity
                                                    information security program was
activities and                                      identiﬁed, though OIG noted that
information security                                                                                     Fraud awareness brieﬁngs were
                                                    MCC had made some improvements
                                                                                                         conducted in ﬁve countries and
OIG’s role in support of in-country                 in addressing such weaknesses.
                                                                                                         MCC headquarters. These brieﬁngs
auditing arrangements resulted in                                                                        highlighted potential contracting
the identiﬁcation and qualiﬁcation                                                                       irregularities and educated those
of audit ﬁrms in six countries to                   Strategic Goal 2:
                                                                                                         with responsibility for administer­
conduct audits of U.S. Government                   Promote economy,                                     ing U.S. Government assistance
programs. Approval of ﬁrms in                       efﬁciency, and                                       programs to potential vulnerabilities.
three additional countries is pending               effectiveness, and assess
receipt of additional records and
documentation. Additionally, OIG                    program results
reviewed statements of work
                                                    An audit addressed MCC’s
for audits in four countries to be
                                                    procedures for ensuring that
conducted by local audit ﬁrms.                                    4
                                                    Section 609(g) assistance funds,
Emphasis continues on building
                                                    grants made to facilitate Compact
relationships with other organiza­
                                                    implementation, are used for
tions with experience or interest in                                   5
                                                    intended purposes. The report


1.	 Information Sensitive But Unclassiﬁed.
2.	 “Risk Assessment of Millennium Challenge Account Cape Verde’s Financial Operations,” September 26, 2006 (Audit Report No. M-000-06-004-F).
3.	 Information Sensitive But Unclassiﬁed.
4.	 Millennium Challenge Act of 2003, Section 609(g) – Assistance for Development Compact authorizes the Chief Executive Ofﬁcer to enter into contracts
    or make grants for any eligible country for the purpose of facilitating the development and implementation of the Compact between the United States
    and the country.
5.	 “Audit of the Millennium Challenge Corporation’s Management of Section 609(g) Funds,” September 28, 2006 (Audit Report No. M-000-06-002-P).
6.	 “Review of the Millennium Challenge Corporation’s Progress in Achieving its Planned Organizational Structure and Beginning its Assistance Programs,”
    May 16, 2006 (Audit Report No. M-000-06-001-S).




                                                                                                   SEMIANNUAL REPORT TO THE CONGRESS                       1
        SUMMARY OF RESULTS

                                                                                                             to account for MCC funds under
                                                                                                             an agreement with El Salvador.
                                                                                                             OIG tested it to determine if
               Strategic Goal #1:                                                                            it meets current information
               Promote sound accounting and reporting on                                                     technology control standards
                                                                                                             for conﬁdentiality, integrity, and
               ﬁnancial activities and information security.                                                 availability. Six control weaknesses
                                                                                                             that could lead directly to erroneous
                                                                                                             or fraudulent payments and 77
                                                                                                             additional weaknesses with potential


        O         IG continues to address
                  MCC’s challenge to
                  develop effective ﬁnancial
        management systems and related
        internal controls by testing MCC’s
                                                          OIG works to build relationships
                                                          with other organizations that are
                                                          active in the ﬁnancial auditing
                                                          of development projects. This is
                                                          particularly useful where USAID
                                                                                                             to compromise the conﬁdentiality,
                                                                                                             integrity, or availability of the
                                                                                                             data or information systems were
                                                                                                             identiﬁed.
                                                                                                                                7
        systems to ensure they provide reli­              does not have a presence. During                   OIG’s audit report recommended
        able and secure data.                             this reporting period, OIG met with                that the six control weaknesses that
                                                          representatives of The World Bank’s                could lead directly to erroneous or
        OIG also provides expertise to                    Europe and Central Asian Regions                   fraudulent payments be corrected
        MCC’s in-country auditing arrange­                in Washington, DC to gain a better                 or mitigated through compensating
        ments. Prior to qualiﬁcation, OIG                 understanding of The World Bank’s                  controls before MCC program
        assesses local ﬁrms for eligibility to            performance reviews, ﬁnancial                      funds are disbursed, and that
        perform audits, reviews documents                 management and procurement                         MCC obtain an action plan for
        to facilitate the in-country audit                practices.                                         correcting the other 77 weaknesses
        process; and audit products are                                                                      before providing program funds to
        evaluated for quality concerns. In                                                                   the Government of El Salvador.
        the last six months, audit ﬁrms have              AUDIT AND ASSESS­                                  Management decision was reached
        been qualiﬁed in Benin, Cape Verde,               MENT WORK                                          on the report’s recommendations.
        Georgia, Ghana, Nicaragua, and                                                                       Final action is pending.
        Vanuatu. Approval of local audit                  Audit of the General
        ﬁrms to perform MCC work in El                    and Application
        Salvador, Nicaragua, and Vanuatu                                                                     Risk Assessment of
                                                          Controls of the
        is pending submission of additional                                                                  MCA/Cape Verde’s
        information. Also, during this                    Government
                                                                                                             Financial Operations
        reporting period, OIG reviewed                    of El Salvador’s
        statements of work for audits                     Integrated Financial                               OIG conducted a risk assessment
                                                                                                                                     8
        planned by implementing agencies                                                                     of MCA/Cape Verde, a $110
                                                          Administration System                              million Compact program, during
        in Cape Verde, Georgia, Honduras
        and Madagascar.                                   The Integrated Financial Adminis­                  the implementation phase to detect
                                                          tration System is maintained by                    vulnerabilities that could prevent
                                                          the Ministry of Hacienda and is                    the establishment of effective
                                                          the system expected to be used                     ﬁnancial operations. Procurement


        7. Information Sensitive But Unclassiﬁed.
        8. “Risk Assessment of MCA/Cape Verde’s Financial Operations,” September 26, 2006 (Audit Report No. M-000-06-004-F).




2        SEMIANNUAL REPORT TO THE CONGRESS
    2
policies have been implemented
in compliance with guidelines
established by MCA and MCC.
However, MCA/Cape Verde’s cash
management process was identiﬁed
as being at medium to high risk for
misappropriation of funds and in
need of improvement to its process
for estimating immediate cash needs.
Improvements are also needed in
MCA/Cape Verde’s review and
approval process for disbursement
requests and in its provision of
guidance and oversight related to
contractors’ advances.


Audit of the Millennium
Challenge Corporation’s
Compliance with the
Provisions of the Federal
Information Security
Management Act of
2002 for Fiscal Year 2006
An audit was conducted to determine
if MCC’s information security
program met the requirements of
the Federal Information Security
Management Act of 2002 (FISMA)
for an agency-wide information
security program that protects MCC’s
                       9
information and assets.
MCC made improvements to its
information security program but
did not meet all of the requirements
of FISMA. Several important
challenges remain: certiﬁcation and
accreditation of its general support
system; a process to manage remedial
actions to strengthen information
security; and oversight and evaluation
of the contractor operated system.




9. Information Sensitive But Unclassiﬁed.




                                            SEMIANNUAL REPORT TO THE CONGRESS   3
                                                                                                                  in implementing its organizational
                                                                                                                  plan; entering into Compacts with
               Strategic Goal #2:                                                                                 eligible countries; complying with
                                                                                                                  the Millennium Challenge Act of
               Promote economy, efﬁciency, and                                                                    2003; and assessing the applicabil­
               effectiveness, and assess program results.                                                         ity of other federal laws and
                                                                                                                  regulations to its operations.
                                                                                                                  Further attention is needed to
                                                                                                                  policy development in the following

        O         IG directs its efforts to
                  evaluating MCC’s response
                  to management challenges
        and provides management with
        recommendations to address
                                                             of 2003. Section 609(g) assistance
                                                             funds awarded after policy was
                                                             implemented in June 2005, were
                                                             found to be in accordance with
                                                             policy. However, Section 609(g)
                                                                                                                  areas: security clearance require­
                                                                                                                  ments; Section 609(g) pre-Compact
                                                                                                                  funds; and countries’ participation
                                                                                                                  in both the threshold and eligible
        vulnerabilities. The challenges relate               funds were awarded to MCC’s initial                  country programs. Short-and
        to human capital; the application of                 ﬁve recipient countries before the                   long-range plans are needed for
        laws and regulations; and develop­                   policy was implemented.                              an integrated human resource
        ment of effective management                                                                              management system that will
        oversight methodologies and                          OIG identiﬁed several areas needing                  maintain and track personnel data
        programs.                                            further improvement to the Section                   and interface with external systems.
                                                             609(g) program and made speciﬁc                      Procedures to designate Contracting
                                                             recommendations to address the                       Ofﬁcer’s Technical Representatives
        AUDIT AND ASSESS­                                    lack of Section 609(g) bridge-                       (COTR) and to deﬁne the type
        MENT WORK                                            funding policies and procedures;                     and frequency of information
                                                             inadequate monitoring and tracking                   that USAID should include in its
                                                             of Section 609(g) funds, speciﬁcally                 progress reports on the threshold
        Audit of the                                         in the areas of ﬁnancial controls                    program.
        Millennium Challenge                                 and country capacity procure­
                                                             ment assessment guidelines; and                      Six recommendations were made,
        Corporation’s                                                                                             and management decision was
                                                             inadequate oversight of overseas
        Management of Section                                procurement activities.                              reached on all. Final action was
        609(g) Funds                                                                                              taken on one recommendation.

        OIG reviewed compliance with                         Review of the
        policy and procedures to ensure
                                                             Millennium Challenge
        funds issued under grants to
        facilitate Compact implementation,
                                                             Corporation’s Progress
        called Section 609(g) assistance                     in Achieving Its
        funds, are used for intended                         Planned Organizational
                   10
        purposes.                                            Structure and
        MCC has developed initiatives to                     Beginning Its Assistance
        track and monitor Section 609(g)                     Programs
        funds to ensure such funds were
                                                             OIG reviewed MCC’s progress
        used for the purposes intended
                                                             in organizational and program
        under the Millennium Challenge Act                                 11
                                                             management. MCC made strides
        10. “Audit of the Millennium Challenge Corporation’s Management of Section 609(g) Funds,” September 28, 2006 (Audit Report No. M-000-06-002-P).
        11. “Review of the Millennium Challenge Corporation’s Progress in Achieving Its Planned Organizational Structure and Beginning Its Assistance Programs,”
            May 16, 2006 (Audit Report No. M-000-06-001-S).




4        SEMIANNUAL REPORT TO THE CONGRESS
    4
     Strategic Goal #3:
     Preserve and protect program and employee
     integrity.



O          IG’s Fraud Awareness
           program focuses on
           prevention and protection
of resources and consists of
brieﬁngs and a manual that
highlights potential contracting
irregularities. Semi-annual brieﬁngs
are conducted at MCC Headquar­
ters for MCC, MCA entities of
host countries, and other interested
parties. During this reporting
period, OIG also conducted
Fraud Awareness brieﬁngs in Cape
Verde, Georgia, Benin, Ghana,
and Vanuatu for local government,
implementing agencies, and audit
ﬁrm staff, foreign government
ofﬁcials, and Supreme Audit
Institute members.




                                                 SEMIANNUAL REPORT TO THE CONGRESS   5
6
               A

               P

               P

  REPORTING    E
REQUIREMENTS   N
               D
               I

               C

               E
               S
                    7
                DESCRIPTION OF RECOMMENDATIONS FOR

                 CORRECTIVE ACTION MADE DURING THE

             REPORTING PERIOD WITH RESPECT TO SIGNIFICANT

              PROBLEMS,ABUSES OR DEFICIENCIES IDENTIFIED


                                      As of September 30, 2006
                                       IG Act, Section 5(a)(2)

       Report                                          Recommendations for Corrective Action


    M-000-06-001-S   1. Personnel Security Procedures:
                        Need for security–related policies and procedures that (1) identify clearance level for each employee and
                        (2) require a preliminary background investigation at a minimum.

                     2. Program Policy improvements:
                        Need to update Section 609 (g) policy regarding concept, requirements, limitations, methodology and
                        application.

                     3. Program Policy improvements:
                        Need for policy guidance on whether a country should be in both the “Eligible” and “Threshold” country
                        programs.

                     4. Information Technology:
                        Assessment recommended for automated options to integrate human resource functions and interface
                        with Department of Interior’s National Business Center.

                     5. Procurement - Contracting Ofﬁcer’s Technical Representative:
                        MCC should provide each Contracting Ofﬁcer’s Technical Representative with a designation letter for each
                        contract they manage.

                     6. Program Development - Progress Reports:
                        MCC should formally deﬁne the frequency and contents of progress reports for the Threshold Program
                        and communicate these requirements to USAID.
    M-519-06-002-P   1. Information Technology:
                         Deﬁciencies in information technology system for the Financial Accounting System should be corrected
                        prior to awarding MCC program funds.

                     2. Information Technology - Timeline for Improvements
                         Require an action plan with timeframes to correct information technology deﬁciencies prior to awarding
                        MCC program funds.




8      SEMIANNUAL REPORT TO THE CONGRESS                                                                                  Appendix A
     Report                                          Recommendations for Corrective Action


 M-000-06-004-F   1. Financial Management - Cash Management
                     Establish policies and procedures to evaluate disbursement requests from recipient countries and require
                      excess cash to be refunded to MCC.

                  2. Financial Statements - Accounting for MCC Funds by the Recipient Country
                     Require ﬁnancial statements covering MCC funds managed by the recipient country to be on the accrual
                     basis of accounting or provide data to inform MCC of accrual expenditures.

                  3. Financial Management - Cash Management
                     Establish policies and procedures to guide the recipient country in disbursements to secondary recipients.
 M-000-06-002-P   1. Financial Management – Procurement
                     Establish procedures to ensure validity of the invoice and improve voucher approval and payment.

                  2. Financial Management - Procurement
                      Establish a policy for the process of approving deviations to the Procurement Agreement.

                  3.   Financial Management – Procurement
                       Issue guidance for assessing procurement capacity by a government or others.

                  4.   Financial Management – Procurement
                       Deﬁne MCC responsibility for monitoring and reviewing the recipient country’s procurement.
 M-000-06-003-P   1. Information Technology – FISMA Compliance
                      Complete certiﬁcation and accreditation of the general support system for MCC

                  2.   Information Technology – FISMA Compliance
                       Develop a process to ensure compliance with FISMA

                  3.   Information Technology - FISMA Compliance
                       Develop a process to improve FISMA compliance and submit a Plan of Action and Milestone Report to the
                       Ofﬁce of Management and Budget quarterly.

                  4. Reopened:- from M-000-05-003-P (Recommendation 2)
                     Information Technology – Security
                     Conduct periodic risk assessments.

                  5.   Reopened – from M-000-05-003-P (Recommendation 3)
                       Information Technology – Security
                       Establish policies and procedures to address risks identiﬁed in assessments

                  6.   Reopened – from M-000-05-003-P (Recommendation 4)
                       Information Technology - Security
                       Document a process to periodically evaluate the effectiveness of information security

                  7.    Reopened – from M-000-05-003-P (Recommendation 5)
                       Information Technology – Security
                       Delegate the Chief Information Ofﬁcer authority to ensure compliance with Information systems policy and
                       designate a Information Security Ofﬁcer




Appendix A                                                                         SEMIANNUAL REPORT TO THE CONGRESS              9
        SIGNIFICANT AUDIT RECOMMENDATIONS DESCRIBED IN A 

        PREVIOUS SEMIANNUAL REPORT ON WHICH CORRECTIVE 

          ACTION (FINAL ACTION) HAS NOT BEEN COMPLETED

                        IG Act, Section 5 (a) (3)


                                         As of September 30, 2006


                                         Recommendation
     Report Number      Issue Date           Number                              Recommendation


     M-000-05-003-P     June 20, 2005         8           Establish and document plans to ensure continuity of operations
                                                          for information systems

     M-000-06-001-C   December 6, 2005        1           Revise and reissue written policies and procedures that provide
                                                          additional speciﬁcity including the Fund Balance with Treasury,
                                                          ﬁnancial reporting, payroll processing, accrual generation and
                                                          reporting, interagency reporting, ﬁxed assets, travel, monitoring
                                                          and internal grant processes.

                                             3.1          Develop policies and procedures to ensure that the payment
                                                          schedules and other agreements entered into with the grantees
                                                          reﬂect U.S.Treasury requirements concerning advances and
                                                          immediate cash needs.

                                             3.2          Establish policies and procedures to ensure that any custodial
                                                          liabilities, e.g. interest owed to the U.S. government resulting from
                                                          the grantee advances, are properly recorded.

                                             5.2          Assess the automated options available to handle MCC
                                                          operations and develop short range and long range plans for the
                                                          implementation of the most appropriate information technology
                                                          structure to address electronic integration of at lease the payroll,
                                                          procurement and travel functions and systems to increase
                                                          the efﬁciencies and effectiveness of the process of ﬁnancial
                                                          transactions, and decrease the risk of errors.

     M-000-06-003-F                           1           Establish and provide a set of detailed accounting policies and
                                                          procedures to recipient countries prior to the initial cash
                                                          disbursement, which can be used during their implementation
                                                          phase.

                                              2           Establish and distribute a set of policies and procedures for
                                                          managing assets purchased with MCC funds.




10     SEMIANNUAL REPORT TO THE CONGRESS                                                                             Appendix B
                       REPORTING REQUIREMENTS FOR WHICH

                           THERE IS NOTHING TO REPORT


                                          As of September 30, 2006


                                    Reporting Requirement                                       IG Act Reference


         Summary of matters referred to prosecutive authorities and the prosecutions and         Section 5 (a) (4)
         convictions that have resulted

         Summary of instances in which information or assistance was refused:                 Section 5(a) and 6(b)(2)
            The Inspector General Act of 1978 (Public Law 95-452), as amended,
            requires the identiﬁcation of any reports made to the head of an agency
            describing where information or assistance was refused or not provided.
            During this reporting period, there were no reports to the Millennium
            Challenge Corporation describing instances where information or
            assistance was unreasonably refused or not provided.

         Audit reports issued by subject matter with questioned costs, unsupported costs          Section 5(a)(6)
         and the dollar value of recommendations that funds be put to better use.

         Number of audit reports issued, with questioned costs, and unsupported costs             Section 5(a)(8)

         Number f audit reports, with the dollar value of recommendations that funds be           Section 5(a)(9)
         put to better use.

         Summary of each audit report issued before the start of the reporting period for        Section 5(a)(10)
         which no management decision has been made by the end of this reporting period

         Decisions and reasons for signiﬁcant revised management decisions                       Section 5 (a) (11)

         Information concerning signiﬁcant management decision with which the IG is in           Section 5(a)(12)
         disagreement

         Information under the Federal Financial Management Improvement Act of 1996              Section 5(a)(13)
         (Section 05B) – Remediation Plan Information

         OIG review of legislation and regulation                                                Section 4 (a) (2)

         Particularly serious or ﬂagrant problems, abuses or deﬁciencies relating to the           Section 5 (d)
         administration of programs and operations




Appendix C                                                                           SEMIANNUAL REPORT TO THE CONGRESS   11
12
                                Inspector General

                 HOTLINE
   OIG’s Hotline makes it easy to report allegations of fraud,
   waste, abuse, mismanagement or misconduct in programs
   and operations of the USAID, IAF, ADF, and MCC.
   Employees, contractors, program participants and the
   general public may report allegations directly by e-mail,
   telephone, or mail to:

   Phone                 	1-202-712-1023
                          1-800-230-6539


   E-mail 	 ig.hotline@usaid.gov


   Mail                  	USAID OIG HOTLINE
                          P.O. Box 657

                          Washington, DC 20044-0657



U.S. Agency for International Development
1300 Pennsylvania Avenue, N.W.
Washington, D.C. 20523
www.usaid.gov
               U.S.Agency for International Development 

                    Ofﬁce of Inspector General 

                               for the

                Millennium Challenge Corporation

                    1300 Pennsylvania Avenue, N.W.

                             Room 6.6D 

                       Washington, DC 20523


                         www.usaid.gov/oig




The Semiannual Report to the Congress is available on the internet at 

            wwww.usaid.gov/oig/public/semiann/mcc1.htm

